No. 19-247
IN THE

Supreme Court of the United States
CITY OF BOISE,
Petitioner,
v.
ROBERT MARTIN, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF FOR AMICI CURIAE
SEVEN CITIES IN ORANGE COUNTY
IN SUPPORT OF PETITIONER
JOHN A. VOGT
JONES DAY
3161 Michelson Drive
Suite 800
Irvine, CA 92612

YAAKOV M. ROTH
Counsel of Record
ALEX POTAPOV
BENJAMIN J. CASSADY
JONES DAY
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-3939
yroth@jonesday.com

Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICI CURIAE ............................... 1
INTRODUCTION & SUMMARY OF
ARGUMENT ........................................................... 2
ARGUMENT ............................................................... 4
I. WHAT DOES IT MEAN FOR SHELTER TO
BE AVAILABLE? ....................................................... 4
A. It Is Unclear Where Shelter Must
Be Available ..................................................... 4
B. It Is Unclear What Kind of Shelter
Must Be Available............................................ 7
C. It Is Unclear When Shelter Must
Be Available ................................................... 10
II. HOW SHOULD SHELTER AVAILABILITY
BE MEASURED? ..................................................... 13
A. It Is Prohibitively Difficult To Measure
the Number of Homeless Individuals ........... 13
B. It Is Also Difficult To Assess the
Number of Available Shelter Beds ................ 15
III.WHAT OTHER LAWS WILL BE AFFECTED? ............ 17
CONCLUSION ......................................................... 21

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Aitken v. City of Aberdeen,
No. 3:19-cv-05322-RBL, 2019 WL
2764423 (W.D. Wash. July 2, 2019) .................... 19
Blake et al. v. City of Grants Pass,
No. 1:18-cv-01823-CL, 2019 WL
3717800 (D. Or. Aug. 7, 2019) ............................. 19
Clinton v. Cody,
No. H044030, 2019 WL 2004842
(Cal. Ct. App. May 7, 2019).................................... 5
Columbus v. Ours Garage & Wrecker
Serv., Inc.,
536 U.S. 424 (2002) ................................................ 6
Hung v. Schaaf,
No. 19-cv-01436-CRB, 2019 WL
1779584 (N.D. Cal. Apr. 23, 2019) ....................... 19
In re Eichorn,
81 Cal. Rptr. 2d 535 (1998) .................................. 20
Jones v. City of Los Angeles,
444 F.3d 1118 (9th Cir. 2006) .......................passim
Manning v. Caldwell,
930 F.3d 264 (4th Cir. 2019) ................................ 20
Quintero v. City of Santa Cruz,
No. 5:19-cv-01898-EJD, 2019 WL
1924990 (N.D. Cal. Apr. 30, 2019) ....................... 19

iii
TABLE OF AUTHORITIES
(continued)
Page(s)
Shipp v. Schaaf,
No. 19-cv-01709-JST, 2019 WL
1644401 (N.D. Cal. Apr. 16, 2019) ....................... 19
Tobe v. City of Santa Ana,
892 P.2d 1145 (Cal. 1995) ...................................... 5
STATUTES
Cal. Welf. & Inst. Code § 17000 .................................. 5
OTHER AUTHORITIES
County of Orange,
Everyone Counts: 2019 Point in Time
Final Report (July 30, 2019) ................................ 14
Sarah Gerry,
Note, Jones v. City of Los Angeles: A
Moral Response to One City’s Attempt
to Criminalize, Rather than Confront,
Its Homelessness Crisis,
42 Harv. C.R.-C.L. L. Rev. 239 (2007) ................. 18
League of California Cities,
2017 City Population Rankings ............................. 5
Lolita Lopez & Phil Dreschler,
NBC Los Angeles, Gangs of LA on
Skid Row (Feb. 19, 2018) ..................................... 15

INTEREST OF AMICI CURIAE1
Amici are seven Cities in Orange County, California:
the City of San Clemente, the City of San Juan
Capistrano, the City of Lake Forest, the City of
Laguna Hills, the City of Rancho Santa Margarita, the
City of Mission Viejo and the City of Aliso Viejo.
All of the Amici Cities share an interest in enforcing
their public health and safety ordinances, and in
effectively addressing the serious social problems
associated with homelessness.

Pursuant to Rule 37.2(a), counsel for all parties received
timely notice of the Cities’ intent to file this brief, and consented
to the filing of the brief. No counsel for any party authored this
brief in any part, and no person or entity other than amici, amici’s
members, or amici’s counsel made a monetary contribution to
fund its preparation or submission.
1

2
INTRODUCTION & SUMMARY OF ARGUMENT
The decision below held that, under the Eighth
Amendment, homeless individuals may not be
penalized “for sleeping outdoors, on public property,
when no alternative shelter is available to them.”
Pet.App. 36a.
Although this rule may appear
straightforward at first glance, in reality it gives rise
to a welter of conceptual and practical imponderables.
As a result, if this decision remains in effect, local
governments throughout the Ninth Circuit may find
themselves unable to enforce a wide range of public
health and safety ordinances.
The dangerous
confusion wrought by the opinion below—which many
of the Amici have already experienced firsthand—
compels review.
I. To begin, it is not clear what it means for shelter
to be “available” to a homeless individual. One open
question is where shelter must be available. If the
shelter must be located in the jurisdiction that is
attempting to enforce the ordinance, then even small
towns may suddenly be charged with maintaining a
substantial stock of shelter beds.
Similarly, it is unclear what kind of shelter must
be available. For example, amicus San Clemente has
sought to comply with the decision below by
designating a city-owned lot as a camping area for
homeless individuals. But homeless advocates have
argued that the decision below requires indoor shelter
to be available before anti-camping ordinances can be
enforced. And San Clemente has faced a barrage of
complaints about the lot’s conditions, including claims
that the Constitution requires the City to provide cellphone charging stations for the homeless.

3
Nor is it clear at what time availability should be
measured. If the answer is “at the moment of
enforcement,” then a homeless person could immunize
himself from public camping ordinances simply by
violating shelter rules and getting evicted (with the
result that the shelter would no longer be “available”
to him). That cannot be right. But nor can any other
answer be reasonably drawn from the decision below.
II. There are also difficult questions concerning
how to measure whether shelter is available. The
decision below arguably allows enforcement of public
sleeping ordinances only if the number of available
shelter beds exceeds the number of homeless persons
in the jurisdiction. But calculating the number of
homeless individuals is prohibitively difficult. Nor is
it straightforward to monitor the number of available
shelter beds, especially given that some shelters are
privately run, and not all shelter beds are available to
all homeless individuals.
In the end, many local governments may simply
cease to enforce their public sleeping and camping
ordinances rather than attempt to comply with the
onerous requirements imposed by the decision below—
indeed, some cities have already done so.
III. Finally, it is unclear what other laws are cast
into doubt by the decision below. The opinion’s logic is
sweeping. It is possible that, beyond sleeping and
camping ordinances, the decision prohibits cities from
enforcing laws that prohibit sleeping in designated
areas or at certain times; laws that prohibit
obstructing traffic; laws that prohibit lighting fires or
building of structures on public land; and even laws
against public urination, defecation, and drug use.

4
Ultimately, what all of these problems illustrate is
that the panel’s approach to this matter is profoundly
mistaken. A particular homeless individual’s inability
to comply with the law should be addressed in that
individual’s criminal proceeding, perhaps through the
assertion of a necessity defense. Attempting to solve
the problem wholesale via broad pre-enforcement
injunctions inevitably begets precisely the confusion
that the decision below has already caused.
For these reasons, this Court should intervene.
ARGUMENT
I. WHAT DOES IT MEAN FOR SHELTER
AVAILABLE?

TO

BE

A. It Is Unclear Where Shelter Must Be
Available
One significant question created by the Ninth
Circuit decision is where the requisite shelter must be
available—in other words, what is the jurisdictional
level at which its rule must be applied.
Given that the rationale for the rule is that it is
improper to punish involuntary behavior, Pet.App. 61a62a, the relevant question would seem to be whether
shelter is available in any jurisdiction that the homeless
individual could reasonably access. But the decision
below arguably goes broader. Instead, public sleeping
and camping ordinances cannot be enforced as long as
“there is a greater number of homeless individuals in a
jurisdiction than the number of available [shelter] beds.”
Pet.App. 62a (emphasis added and internal quotation
marks and alterations omitted); see Pet.App. 43a-51a
(considering only whether shelters were available in
Boise). This is certainly the interpretation adopted by
homeless advocates.

5
That rule, however, makes little sense. Especially
in areas containing many small jurisdictions, it may
be completely impractical to ensure that each one has
its own sufficient shelter space to house the maximum
number of homeless individuals that might be present
in that jurisdiction at a given time. California, for
example, has over 100 incorporated cities with fewer
than 10,000 residents each.2
Moreover, in some states—including California—
the primary responsibility for providing indigent care
lies with a different level of government than the
primary responsibility for enforcing basic public order
ordinances. While cities such as San Clemente enact
ordinances regarding public sleeping and camping, it
is counties that are charged by state law with caring
for the indigent. See Cal. Welf. & Inst. Code § 17000;
Tobe v. City of Santa Ana, 892 P.2d 1145, 1165 n.18
(Cal. 1995) (“If the inability of ... homeless persons ...
to afford housing accounts for their need to ‘camp’ on
public property, their recourse lies not with the city,
but with the county” to whom the legislature
“allocat[ed] ... responsibility to assist destitute
persons.”); Clinton v. Cody, No. H044030, 2019 WL
2004842, at *8 (Cal. Ct. App. May 7, 2019) (“[C]ounties,
not cities, have a statutory obligation regarding
housing for the indigent.”).
Under the Ninth Circuit’s rule, then, cities can only
enforce their ordinances by taking on the obligations
that state law assigns to counties. The decision below
thus works a significant and unwarranted intrusion
2 See League of California Cities, 2017 City Population
Rankings, available at https://www.cacities.org/ResourcesDocuments/About-Us/Careers/2017-City-Population-Rank.aspx.

6
on California’s scheme of governance. Cf. Columbus v.
Ours Garage & Wrecker Serv., Inc., 536 U.S. 424, 437
(2002) (“Whether and how to use th[e] discretion [to
delegate governmental powers to local government
units] is a question central to state self-government.”)3
The Ninth Circuit’s rule also raises an additional
puzzle. Suppose that, in an attempt to comply with
the decision below, a city purchased a building in a
neighboring city in order to operate it as a shelter. Are
those beds “available” to homeless individuals in the
city that owns and operates the shelter, or would that
city violate the Eighth Amendment by enforcing its
anti-camping ordinance in reliance on that shelter?
Would the answer change if the city offered to provide
free transportation to the shelter? How convenient
would that transportation have to be? The decision
below provides no answers—and no certainty.
Furthermore, some homeless individuals may
assert that they have a legal or practical obligation to
remain in a limited geographical area (for example, to
receive treatment for addiction). For such individuals,
must shelter be “available” within that limited area?
Again, the opinion below is silent.
The confusion as to the relevant jurisdictional level is
reflected in a settlement that Orange County entered in order to
resolve claims resembling those addressed by the decision below.
Notice of Filing Settlement of Class Action, Orange Cty. Catholic
Worker v. Orange Cty., et al., No. 8:18-cv-00155, Dkt. 318 (C.D.
Cal., July 23, 2019). Orange County agreed that, in attempting
to place homeless individuals in shelters, it would not transport
those individuals across “Service Planning Areas.” Id. at 10.
These “Service Planning Areas” are arbitrary units with no
preexisting jurisdictional significance or relevance under state
law or otherwise. See id. at 9.
3

7
B. It Is Unclear What Kind of Shelter Must Be
Available
The Ninth Circuit’s opinion also provides precious
little guidance as to what sort of accommodations must
be provided at a shelter in order to “qualify” as a true
alternative to violating a public camping ordinance.
Perhaps the most basic question is whether the
shelters must be indoors. This is of immediate
practical concern to amicus San Clemente. Seeking to
comply with the decision below, San Clemente adopted
an emergency ordinance designating a city-owned lot
as a camping site where anti-camping ordinances
would not be enforced. 4 The City contracted for a
decomposed granite floor covering, lighting and
fencing, and bathroom facilities for the homeless
population to use while at the site. 5 The City also
provides security, including cameras and a security
guard.6 In addition, City staff have coordinated with
a homeless-outreach service provider to make regular
visits to the site to offer various social services.7 The
City’s objective is to ensure that the homeless have a
place to sleep without violating the law—such that the
City’s ordinances may be constitutionally enforced in
the rest of the City.

4 See Request for Judicial Notice at 9-14, Housing Is a Human
Right Orange Cty. et al. v. Cty. of Orange et al., No. 8:19-cv-00388,
Dkt. 72-2 (C.D. Cal. July 1, 2019).

Declaration of Erik Sund, ¶¶ 2, 5, Housing Is a Human
Right Orange County et al. v. The County of Orange et al., No.
8:19-cv-00388, Dkt. 75-2 (C.D. Cal. July 1, 2019).
5

6

Id. ¶¶ 2, 6.

7

Id. ¶¶ 10, 11.

8
Under the basic logic of the opinion below, the
availability of an outdoor camping area like the San
Clemente lot should allow a jurisdiction to enforce its
public sleeping ordinances. After all, the underlying
question is whether the homeless person had no choice
but to sleep in an area where sleeping is prohibited.
Pet.App. 62a-63a.
The San Clemente lot gives
homeless individuals a choice by providing them with
an alternative place to sleep.
However, homeless plaintiffs have invoked stray
language in the opinion which suggests that only
indoor shelter is acceptable. Pet.App. 62a (suggesting
that the question is whether one has the “option of
sleeping indoors”). If that is the rule, then no
jurisdiction could enforce its public sleeping
ordinances unless it erected and maintained sufficient
indoor shelter space to house its entire homeless
population—a prohibitively expensive proposition.
See Pet.App. 17a-18a (M. Smith, J., dissenting from
denial of rehearing en banc).
Even assuming an outdoor lot is acceptable, the
next question is what accommodations must be offered
at that site (or for that matter at any other kind of
shelter). For example, San Clemente has already had
to contend with claims that conditions at its outdoor
lot violate both the Fourteenth Amendment and the
Americans with Disabilities Act, among other laws.
Plaintiffs have asserted, among other things, that
the lot violates the law because (1) it has overflowing
trash receptacles; (2) there is no shade; (3) one must
climb a hill to get to the site; (4) at the entrance to the
camp, “the land dips several inches and there is a
divot”; (5) the portable toilets are not serviced often

9
enough; (6) there is no easily accessible parking; (7) it
is necessary to walk “.35 miles” to get to an area where
cooking is permitted; and (8) there is no place for
residents to charge cell phones. 8 The uncertainty
around claims of this sort is putting insurmountable
pressure on cities and counties to settle, rather than
expose themselves to costly litigation and the threat of
damages under Section 1983. See, e.g., Notice of Filing
Settlement of Class Action, Orange Cty. Catholic
Worker v. Orange Cty., et al., No. 8:18-cv-00155, Dkt.
318 (C.D. Cal., July 23, 2019).
Finally, yet another category of questions concerns
whether, and under what circumstances, a shelter’s
policies can render it unavailable for a given homeless
individual. For example, many shelters have a
religious orientation. See, e.g., Pet.App. 37a-39a. Is
such a shelter unavailable to an individual who
advances a religious objection? The panel suggested
that “coerc[ing] an individual to attend religion-based
treatment” “via the threat of prosecution” would
violate the Establishment Clause. Pet.App. 47a. If
that position is correct, it would potentially eliminate
all religious shelters from the calculus required by the
decision below. Moreover, it would also be necessary
to ask what other constitutional rights may render
large categories of shelters unavailable. For example,
could “coerc[ing]” an individual to stay at a shelter
that requires residents to surrender certain dangerous
items constitute a Fourth Amendment violation (or a
Memorandum in Support of Ex Parte Application for a
Temporary Restraining Order at 5, 15-18, Housing Is a Human
Right Orange Cty. et al. v. Cty. of Orange et al., No. 8:19-cv-00388,
Dkt. 69-1 (C.D. Cal. June 30, 2019).
8

10
Second Amendment violation, for that matter)? Could
a shelter policy against using profane language violate
a resident’s free speech rights? All of this remains to
be determined, if the decision below holds.
Other questions readily present themselves, too.
For example, some shelters are open exclusively to
men or to women. See, e.g., Pet.App. 38a-39a. Is such
a shelter “available” to a married individual whose
spouse would be excluded? Does that implicate his
constitutional due process rights? Similarly, some
have asserted that homeless individuals who own pets
should not be required to use a shelter which does not
allow pets. Indeed, it has been suggested that some
homeless individuals are acquiring pets in the hopes
that this will exempt them from the enforcement of
anti-camping ordinances.
In addition, some shelters may not admit persons
with prior convictions for various serious offenses
(such as violent crimes or sex crimes). Under the
Ninth Circuit rule, does every jurisdiction have to
maintain a separate shelter for such individuals?
In short, the question of what constitutes
“adequate” shelter remains profoundly unsettled.
C. It Is Unclear When Shelter Must Be
Available
There are also serious lurking questions as to when
a homeless individual must have access to shelter.
The answer may appear to be obvious: shelter must be
available as of the moment when the government
attempts to enforce its ordinance. But that approach
quickly devolves into paradox.
Consider a shelter which (as any shelter must)
imposes some basic rules on its residents, such as a

11
prohibition on assaulting other residents. Should such
a shelter still be viewed as available to an individual
who does not wish to abide by those rules? The answer
must surely be yes.
But now imagine that the same individual checks
in to the shelter, violates the rule against assaulting
other residents, and is evicted as a result. Should the
shelter now be regarded as available? If the question
is considered at the time of enforcement, the answer
would appear to be no.
See Pet.App. 48a-49a
(suggesting that its rule would apply to individuals
who were “denied entry” to a shelter “for reasons other
than shelter capacity”). This cannot be right. There
is no justification for allowing homeless individuals to
exempt themselves from public sleeping ordinances
simply by violating rules that, ex ante, all would agree
they should be expected to follow.
This is no mere theoretical construct. The Orange
County Sheriff’s Department—which is the contract
law-enforcement agency for many cities within its
borders—has advised amicus San Clemente that its
officers would not enforce the City’s public camping
ordinance against individuals who have been evicted
from the San Clemente campsite, claiming that such
enforcement is barred by the decision below. This
regime—which rewards willful violations of even the
most uncontroversial shelter rules—is perverse and
dangerous.
And the same sort of temporal paradox reappears
in any number of contexts. For example, the opinion
below notes that two shelters in Boise deny admission
to anyone arriving after 8 PM. Pet.App. 48a. If
availability must be measured at the moment of

12
enforcement, a homeless individual could be cited for
camping in public at 7:30 PM, but not at 8:30 PM (even
though it would still be true at 8:30 PM that she had
been free to go to the shelter at 7:30 PM).
The Boise shelters described in the opinion below
also do not allow individuals who voluntarily leave the
shelters to return immediately. Pet.App. 48a. It
would be odd to treat a shelter as unavailable to
someone who is excluded from it only because he made
a choice to leave; yet that is what the opinion below
suggests. Pet.App. 48a-49a.
Another version of the same difficulty arises with
respect to homeless individuals who travel from one
location to another. Suppose there is adequate shelter
in City A, but a homeless individual makes a voluntary
decision to relocate to City B. Should shelter in City A
be viewed as available to that individual? May City B,
at least, impose a durational residency requirement
such that its shelters are available only to persons who
have lived in City B for some prescribed period?
Prohibiting such requirements would be untenable as
a practical matter; a desirable city could be forced to
provide more and more shelter, ad infinitum, as more
homeless individuals arrived from all over the country.
And yet, again, that is arguably what the decision
below would require.
In all of these examples, the conceptual problem is
traceable to the difficulty of assessing when an action
should be considered “voluntary.” The decision below
completely fails to grapple with this question. Jones v.
City of Los Angeles—an earlier Ninth Circuit opinion
which reached the same conclusion but was vacated
due to settlement—analyzed the matter a bit more

13
carefully. 444 F.3d 1118, 1132 (9th Cir. 2006), vacated,
505 F.3d 1006 (9th Cir. 2007). Jones suggested that
the underlying question was whether an individual’s
“past volitional acts” were “sufficiently proximate to
the conduct at issue … for the imposition of penal
sanctions to be permissible.” Id. at 1137.
Under that framework, the issue in the examples
above would be whether the lack of available shelter is
so tightly linked to an individual’s prior volitional acts
that the individual should be viewed as sleeping on the
streets voluntarily, even if no shelter is available to
her at that precise moment. But it is not clear whether
the decision below leaves room even for that modest
qualification. And even if it did, the exception would
not be administrable. There is no practical way for city
officials making street-level enforcement decisions to
conduct an all-things-considered evaluation of which
“past volitional acts” (if any) deprived a particular
homeless person of access to shelter.
II. HOW SHOULD
MEASURED?

SHELTER

AVAILABILITY

BE

A. It Is Prohibitively Difficult To Measure the
Number of Homeless Individuals
The opinion below declares that public sleeping
ordinances cannot be enforced “so long as there is a
greater number of homeless individuals in a
jurisdiction than the number of available beds in
shelters.”
Pet.App. 62a (quotation marks &
alterations omitted). Thus, to determine whether it
may enforce its ordinances, a local government must
determine how many homeless individuals are within
its jurisdiction. Obtaining that information, however,
is virtually impossible.

14
One logical place to start would be the “Point in
Time” count (or “PIT Count”), a federally required
census of the homeless population. However, the PIT
Count of the unsheltered population is conducted only
once every two years.9 Thus, at most times the PIT
Count information will be significantly out of date,
especially given that homeless populations fluctuate
dramatically. While governments may attempt to
adopt enforcement policies based on the most recent
PIT Count, it is far from certain that courts will treat
the PIT Count as a safe harbor.
Any attempt to count the homeless population
more frequently—for example, on any day when the
local government would wish to enforce its public
sleeping or camping ordinances—would be impossibly
expensive and difficult. As Judge Smith noted,
someone would have to “painstakingly tally the
number of homeless individuals block by block, alley
by alley, doorway by doorway.” Pet.App. 16a (M.
Smith, J., dissenting from denial of rehearing en banc).
In Los Angeles, for example, this task requires three
days even with the participation of thousands of
volunteers—and still fails to produce a complete count.
Pet.App. 16a.
Further, the
population are
purposes of the
sleeping on the

problems of counting the homeless
compounded by the fact that, for
decision below, not every individual
streets should be counted. As the

See County of Orange, Everyone Counts: 2019 Point in Time
Final Report 13 (July 30, 2019); Pet.App. 36a-37a (noting that the
most recent available data for Boise was from 2016, and claiming
that the “PIT Count likely underestimate[d] the number of
homeless individuals” in the area).
9

15
panel explained, its “holding does not cover
individuals who do have access to adequate temporary
shelter,” such as individuals who “have the means to
pay for it” but decline to do so. Pet.App. 62a n.8.
Accordingly, to obtain an accurate count of
individuals for whom shelter must be made available,
local governments would have to somehow distinguish
between individuals who are sleeping outside by
necessity and those who are doing so by choice. There
is simply no feasible way to do this.10
B. It Is Also Difficult To Assess the Number of
Available Shelter Beds
Continually measuring the availability of shelter
beds presents its own set of challenges. For one thing,
some shelters are run by private organizations, so
governments must engage in a complex coordination
effort to maintain accurate and up-to-date records of
vacancies at those shelters.
What is more, some shelters are limited to one
gender, so simply knowing that shelter beds are
available may not be sufficient. More generally, as
discussed in Part I of this brief, determining whether
a given shelter is “available” for a given individual is
a complex and fraught fact-intensive inquiry.
In addition, it is not clear what relationship a given
jurisdiction should strive to achieve between the
The task is made even more difficult by the fact that
criminals often take up residence in homeless encampments in
order to hide among—and victimize—the genuinely homeless.
See, e.g., Lolita Lopez & Phil Dreschler, NBC Los Angeles, Gangs
of LA on Skid Row (Feb. 19, 2018), available at
https://www.nbclosangeles.com/news/local/Gangs-of-LA-on-SkidRow-474531353.html.
10

16
number of shelter beds and the number of homeless
individuals. One option would be simply to aim for the
number of beds to exceed the homeless population by
at least one. But, as Judge Smith noted, it would be
easy to miscalculate by failing to account for one or
more homeless individuals. That innocent error would
create an Eighth Amendment violation, “potentially
leading to lawsuits for significant monetary damages
and other relief.”
Pet.App. 17a (M. Smith, J.,
dissenting from denial of rehearing en banc).
The only safe alternative, then, would be to
maintain shelter capacity significantly exceeding the
homeless population. That would make compliance
with the Ninth Circuit’s rule even more extravagantly
expensive. And the expense would not be justified by
any coherent policy rationale. In effect, it would result
in maintenance of a significant stock of shelter beds
that will never be used. Indeed, even maintaining a
number of beds equal to the number of homeless
persons would guarantee that some beds would go
unused, as some portion of the homeless population
simply does not wish to reside in a shelter.11
In the end, it is far from clear what it would take to
comply with the Ninth Circuit’s rule. What is clear is
that—as long as the decision below remains in force—
local governments will not be able to enforce their
ordinances without great risk and expense. As a result,
Perhaps in tacit recognition of this point, the court in one
recent case approved a settlement requiring the defendants to
have beds “for at least 60 percent of the unsheltered individuals”
in the relevant area. Notice of Settlement at 5, Orange Cty.
Catholic Worker et al. v. Orange Cty. et al., No. 8:18-cv-00155, Dkt.
272 (C.D. Cal. Oct. 26, 2018). Of course, that figure is entirely
arbitrary.
11

17
many cities will be forced to simply abandon them—as
some have already begun to do. Pet.App. 17a-19a (M.
Smith, J., dissenting from denial of rehearing en banc).
The consequences for public safety and health will be
as predictable as they are dire.
III. WHAT OTHER LAWS WILL BE AFFECTED?
A. The expansive logic of the decision below also
threatens a host of other public health and safety laws.
To appreciate the panel opinion’s scope, it is helpful to
compare it with its vacated predecessor, Jones.
The Jones panel made at least some effort to cabin
its opinion. In particular, it identified a safe harbor
for laws which required, as an element, “some conduct”
beyond simply sitting, lying, or sleeping in the streets.
444 F.3d at 1123-24. Jones made clear that such laws
were permissible because they did not “criminaliz[e]
the status of homelessness.” Id. at 1123. The decision
below, however, contains no such assurances.
One category of laws falling within the Jones safe
harbor are “time, place, and manner” laws—e.g.,
ordinances that apply only during limited hours, or
prohibit sleeping “in clearly defined and limited zones,”
or prohibit “obstruct[ing] pedestrian or vehicular
traffic.” Id. at 1123. The opinion below, by contrast,
says only that such statutes “might well be
constitutionally permissible.”
Pet.App. 63a n.8
(emphasis added). That is hardly reassuring.
Indeed, as noted above, the opinion below could be
read as suggesting that cities must provide indoor
shelter before enforcing their ordinances. Under that
logic, would an ordinance restricting public sleeping in
certain designated areas be construed as an attempt
to, in effect, turn the rest of the city into an inadequate

18
outdoor shelter? If so, then Judge Smith was right to
say that the decision “effectively allows homeless
individuals to sleep and live wherever they wish on
most public property.” Pet.App. 18a-19a (M. Smith, J.,
dissenting from denial of rehearing en banc).
B. Another category of laws that Jones viewed as
clearly permissible were ordinances against camping
(as opposed to merely sleeping) in public. 444 F.3d at
1123. And yet one of the Boise ordinances at issue in
the decision below was a camping ordinance. Pet.App.
64a-65a. The opinion made clear that this ordinance
fell within the scope of its rule, because the ordinance
could be “enforced against homeless individuals who
take even the most rudimentary precautions to protect
themselves from the elements.” Pet.App. 65a.
One cannot help but wonder what else the Ninth
Circuit will regard as constitutionally protected
“rudimentary precautions … from the elements.” For
example, it is easy to imagine an argument that the
decision below creates an Eighth Amendment right to
light fires (necessary for cooking) or even erect
structures (necessary to ensure shade from the sun
and protection from the rain) on public property.
More generally, the panel’s insistence that only
voluntary conduct can be criminalized leads naturally
to the conclusion that a wide range of other laws—
such as laws against public urination, defecation, and
drug use—may also be unconstitutional in many cases.
See Pet.App. 17a-20a (M. Smith, J., dissenting from
denial of rehearing en banc). As one pro-Jones
commentator acknowledged:
It is unclear … why the line should be drawn
[at public sleeping ordinances]. Both sleeping

19
and eating are human necessities.
If
criminalization of sleeping on the streets
violates the Eighth Amendment when there is
no
alternative
shelter,
then
surely
criminalization of panhandling would face the
same charge when there is no alternative
source of money to purchase food.
Sarah Gerry, Note, Jones v. City of Los Angeles: A
Moral Response to One City’s Attempt to Criminalize,
Rather than Confront, Its Homelessness Crisis, 42
Harv. C.R.-C.L. L. Rev. 239, 248-49 (2007).
In sum, it is clear that, unless it is checked, the
logic of the decision below will expand widely, posing
a profound threat to the protection of even the most
basic health and safety standards within the Ninth
Circuit. Unsurprisingly, a number of plaintiffs have
already filed lawsuits relying on the panel opinion,
and undoubtedly there are more to come.12
The issue, then, is not whether States within the
Ninth Circuit will be able to “criminalize
homelessness”; the issue is whether those States will
be able to exercise their fundamental regulatory
prerogatives. In addition, review of this decision
See, e.g., Shipp v. Schaaf, No. 19-cv-01709-JST, 2019 WL
1644401 (N.D. Cal. Apr. 16, 2019); Hung v. Schaaf, No. 19-cv01436-CRB, 2019 WL 1779584 (N.D. Cal. Apr. 23, 2019); Quintero
v. City of Santa Cruz, No. 5:19-cv-01898-EJD, 2019 WL 1924990
(N.D. Cal. Apr. 30, 2019); Aitken v. City of Aberdeen, No. 3:19-cv05322-RBL, 2019 WL 2764423 (W.D. Wash. July 2, 2019);
Complaint, Rios et al. v. Cty. of Sacramento et al., No. 2:19-cv00922-KJM-DB (E.D. Cal. May 22, 2019); see also, e.g., Blake et
al. v. City of Grants Pass, No. 1:18-cv-01823-CL, 2019 WL
3717800 (D. Or. Aug. 7, 2019) (certifying class of homeless people
in a challenge to city’s sleeping and camping ordinances).
12

20
would provide much-needed clarity in other circuits,
given that courts of appeals have now taken three
different positions on the constitutionality of
criminalizing purportedly involuntary conduct. Pet.
20-25; see, e.g., Manning v. Caldwell, 930 F.3d 264,
281-85 (4th Cir. 2019) (en banc).
*
*
*
As the many problems discussed above illustrate,
the decision below is profoundly misconceived from a
procedural standpoint. It simply makes no sense for
courts to attempt to resolve these complex issues with
broad pre-enforcement injunctions. If a particular
homeless person cannot comply with a particular
ordinance, that issue should be addressed in that
person’s criminal trial—perhaps via the traditional
necessity defense, recognized under California law.
See In re Eichorn, 81 Cal. Rptr. 2d 535, 539-40 (1998).
That approach would properly allow individual
circumstances to be taken into account.
By contrast, the blunderbuss approach adopted by
the panel will severely undermine the ability of local
governments to address difficult social problems. This
Court should step in and prevent these grave practical
consequences from coming to pass.

21
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.
September 25, 2019
JOHN A. VOGT
JONES DAY
3161 Michelson Drive
Suite 800
Irvine, CA 92612

Respectfully submitted,
YAAKOV M. ROTH
Counsel of Record
ALEX POTAPOV
BENJAMIN J. CASSADY
JONES DAY
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-3939
yroth@jonesday.com

Counsel for Amici Curiae

